No. _ _ __
In the
Supreme Court of the United States

Bilal Hamid Love,
Petitioner
vs.

United States of America,
Respondent

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
Gary A. Udashen
Counsel of Record
UDASHEN I ANTON
8150 N. Central Expressway
Suite MllOl
Dallas, Texas 75206
214-468-8100
214-468-8104 fax
gau@udashenanton.com

The undersigned counsel of record for Petitioner hereby certifies
that all parties required to be served have been served with this Petition
for Writ of Certiorari. The following parties have been served:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530-0001
United States Attorney
Southern District of Mississippi
501 East Court Street, Suite 4.430
Jackson, Mississippi 39201
Signed on this 19th day August, 2021.

GARY A. UDASHEN
Attorney of Record for Petitioner,
Bilal Hamid Love

2

